Attorneys for Petitioner
Gregory George Garre
Counsel of Record

Latham & Watkins LLP
555 11th Street, NW
Suite 1000
Washington, DC 20004

202-637-2200

gregory.garre@lw.com
Party name: Christopher Gibson
Attorneys for Respondents
Jeffrey B. Wall
Counsel of Record

Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Party name: Securities and Exchange Commission, et al.

202-514-2217

